HHS/OIG-Audit:"Implementation of Medicare's Postacute Care Transfer Policy,"(A-04-00-01220)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Implementation of Medicares Postacute Care Transfer Policy, (A-04-00-01220)"
October 10, 2001
Complete
Text of Report is available in PDF format (436 Kb).  Copies can also be obtained by contacting the Office of
Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that the Centers for Medicare & Medicaid Services (CMS) have no controls in place to prevent
excessive payments to prospective payment system (PPS) hospitals for erroneously coded patient discharges that are followed
by postacute care, such as care in a skilled nursing facility or by a home health agency. Medicare policy calls for inpatient
payment rates to be reduced when PPS hospitals discharge beneficiaries in 10 specified diagnosis related groups (DRG) to
such settings. However, we estimate, based on a statistical sample, that Medicare paid approximately $52.3 million nationwide
in excessive DRG payments to PPS hospitals as a result of erroneously coded discharges. In addition to recovery of overpayments,
we are recommending that HCFA, as a long-term remedy, establish edits in its Common Working File to compare beneficiary
inpatient claims potentially subject to the postacute care policy with subsequent claims. This will allow potentially erroneous
claims to be reviewed and appropriate adjustments to be made to the discharging hospitals inpatient claim.  CMS
officials concurred with our findings and recommendations.